OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/PAKISTAN’S
SUPPORT TO THE BENAZIR
INCOME SUPPORT PROGRAM
AUDIT REPORT NO. G-391-12-006-P
MAY 21, 2012




ISLAMABAD, PAKISTAN
Office of Inspector General


May 21, 2012

MEMORANDUM

TO:                  USAID/Pakistan Mission Director, Andrew B. Sisson

FROM:                Office of Inspector General/Pakistan Director, Joseph Farinella /s/

SUBJECT:             Audit of USAID/Pakistan’s Support to the Benazir Income Support Program
                     (Report No. G-391-12-006-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered USAID/Pakistan’s comments on the draft report and have included those
comments (without attachments) in Appendix II.

The report contains three recommendations to help USAID/Pakistan improve various aspects of
the program. USAID/Pakistan agreed with the recommendations. On the basis of the
information provided by the mission in response to the draft report, we determined that final
actions have been taken on Recommendations 1 and 2, and a management decision has been
made on Recommendation 3. A determination of final action on this recommendation will be
made by the Audit Performance and Compliance Division when the mission completes planned
corrective actions.

Thank you for the cooperation and courtesies extended to the audit team during this audit.




U.S. Agency for International Development
American Embassy, Diplomatic Enclave
Ramna 5, Islamabad, Pakistan
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 3

     Mission Has Not Authorized Disbursement of the Second Tranche of Funds
     to the Program ...................................................................................................................... 3

     Mission Has Not Obtained Documents Required to Monitor the Use of Funds ...................... 4

     Mission Did Not Review Eligibility Under the Poverty Scorecard System............................... 5

Evaluation of Management Comments.................................................................................... 6

Appendix I—Scope and Methodology ..................................................................................... 8

Appendix II—Management Comments .................................................................................. 10
SUMMARY OF RESULTS
The Government of Pakistan launched the Benazir Income Support Program in 2008 to assist
families in poverty. The program provides them with regular cash payments as a way of
stabilizing the economy. Enrolled beneficiaries are paid 2,000 rupees (about $22) every
2 months.     Initially, members of the Pakistani Parliament submitted lists of potential
beneficiaries. To reduce the risk of impropriety, the World Bank assisted the program in
developing a poverty scorecard to select beneficiaries. Through a nationwide census, each
household received a poverty score. Those falling below 16.17 qualify to receive program
payments.

To support this effort, in September 2009 USAID/Pakistan signed an $85 million cash transfer
grant agreement with the Islamic Republic of Pakistan (Agreement No. 391-012-01) through the
Economic Affairs Division of the Ministry of Economic Affairs and Statistics. The Government of
Pakistan and USAID/Pakistan signed an amendment to the agreement in June 2010, providing
an additional $75 million and bringing the total amount to $160 million. Under the terms of the
agreement, on receiving the cash transfer, the government is to deposit the equivalent amount
of Pakistani rupees immediately in a special local currency account to support program
payments to eligible families. USAID/Pakistan must approve disbursements of funds from the
account to the program. USAID/Pakistan’s Program Office is responsible for monitoring the
agreement. The Benazir Income Support Program is not a USAID program; it is a Government
of Pakistan program receiving budget support from USAID through Agreement No. 391-012-01.

USAID’s Office of Inspector General in Pakistan conducted this audit to determine whether
USAID/Pakistan’s cash transfers provided to the Benazir Income Support Program reached the
intended beneficiaries.

The audit found that the first installment or tranche of $85 million transferred to the Government
of Pakistan in February 2010 was disbursed by the program to approximately 480,000
beneficiaries. The audit team reviewed program records for a statistical sample of 162 of the
480,000 beneficiaries and found that recipients’ names, addresses, and payments were
accurate. Further, program officials provided evidence of a poverty scorecard for each of the
sample beneficiaries. In addition, USAID/Pakistan commissioned a survey that found that 98
percent of randomly sampled beneficiaries had received payments.

However, the audit found problems with the second tranche of $75 million transferred on July 1,
2010:

   The mission has not approved disbursement (page 3). The funds were deposited in a
   Government of Pakistan special dollar account at the Federal Reserve Bank of New York.
   The government then withdrew the dollars and transferred the equivalent, 6.4 billion rupees,
   to a special local currency account for the program. Money in this account is to be
   disbursed to the program to support households in poverty and cannot be disbursed without
   USAID/Pakistan approval. As of March 2, 2012, USAID/Pakistan was withholding approval
   pending confirmation that the program had an effective monitoring and evaluation plan.

   The mission has not obtained from the Economic Affairs Division financial information
   needed to monitor the use of the transferred funds (page 4). Repeated requests for
   quarterly reports and bank statements have not produced them. Without the documents,

                                                                                                1
   the mission was unaware that the government had deviated from the agreement by moving
   the funds, comingling them in the general budget account and then transferring them back.

   The mission did not confirm that beneficiaries had qualifying scores under the poverty
   scorecard system (page 5). Although the audit team reviewed the eligibility of those who
   received benefits when the first tranche was disbursed and found no problems, eligibility of
   recipients for the second installment should be checked.

Therefore, the report recommends that USAID/Pakistan:

1. Establish a policy of directing document requests pertaining to Agreement No. 391-012-01
   to the Government of Pakistan’s Economic Affairs Division, requesting the prompt
   submission of all information required for the release of the $75 million for the program
   (page 4).

2. Establish a plan for periodic follow-up with the Government of Pakistan’s Economic Affairs
   Division and the Benazir Income Support Program to obtain the required financial reports
   and bank statements (page 5).

3. Develop a plan to confirm on a sample basis that recipients have qualifying scores under
   the poverty scorecard system for the second tranche of $75 million (page 5).

Detail findings appear in the following section. The audit scope and methodology are described
in Appendix I. Appendix II contains management comments in their entirety (without
attachments), and our evaluation of management comments is included on page 6 of the report.




                                                                                              2
AUDIT FINDINGS
Mission Has Not Authorized
Disbursement of the Second Tranche
of Funds to the Program
The Islamic Republic of Pakistan, acting through the Economic Affairs Division of the Ministry of
Economic Affairs and Statistics, signed an amendment with USAID in June 2010 designed to
stabilize the economy with a second tranche of $75 million. The agreement’s objectives
included prompt disbursement of cash transfer dollars to support the overall Government of
Pakistan budget and support the Benazir Income Support Program in making cash payments to
low-income families. Through the amended agreement, USAID provided $75 million to fund
payments of 2,000 rupees (about $22) every 2 months to the families.

The agreement includes specific requirements for the flow and use of funds. A Government of
Pakistan separate dollar account at the Federal Reserve Bank of New York was established to
receive USAID dollars. The agreement states that, promptly after each disbursement of a
tranche under the grant, the Economic Affairs Division “shall withdraw all dollars of that tranche
from the separate dollar account and shall deposit in the special local currency account for that
tranche the equivalent amount of Pakistani rupees at the highest lawful rate available to the
State Bank of Pakistan on the date of conversion.”

In addition, the Government of Pakistan must receive approval from USAID/Pakistan to make
disbursements to the program from the special local currency account and can disburse funds
to the program only to support its payments to poor families. According to the June 2010
amendment, which pertains to the second tranche, the program must provide USAID/Pakistan
evidence of an effective evaluation and monitoring plan before the program can receive funds.

The audit found that $75 million was transferred to the separate dollar account in July 2010.
The Government of Pakistan promptly withdrew this money. USAID/Pakistan reported that the
government used the $75 million to meet other obligations, thus meeting the objective relating
to overall budget support. The government placed the equivalent value of 6.4 billion rupees in
the special local currency account. However, as of March 2012, USAID/Pakistan had not
authorized the government to transfer this money to the program because mission officials have
been unable to verify that the program has implemented an effective monitoring and evaluation
plan.

A USAID/Pakistan official explained that the second tranche was delayed initially because it
took longer than expected to disburse the first tranche of $85 million. Since full disbursement of
the first tranche, however, USAID/Pakistan has requested documentation of an effective
monitoring and evaluation plan multiple times. The Government of Pakistan has not yet
complied with these requests.

Another potential delay in authorizing the transfer of the funds to the program was a senior
official’s belief that the principal purpose of the program was the disbursement of funds to
support the fiscal accounts of the Government of Pakistan. For example, this official,
responsible for the program, said he believed the program’s goals were achieved when the
dollars were disbursed to the government and that tracking the rupee flows should be a very

                                                                                                3
secondary factor in assessing the goals and success of this cash transfer. Other officials said
this belief did not diminish their efforts to monitor the agreement and disburse the second
tranche.

Nevertheless, overall budget support was not the only objective. The agreement also states
that one of the principal objectives was to support the government’s cash assistance program to
low-income families. Because the Government of Pakistan has not used the 6.4 billion rupees
to assist low-income families, this objective has not yet been met.

In addition, the audit noted that USAID/Pakistan’s requests for documentation of the monitoring
and evaluation plan have been directed to the program. However, according to the agreement,
the grantee is Pakistan’s Economic Affairs Division, and it is responsible for providing all
documentation under the agreement. USAID/Pakistan officials explained that they started
appealing directly to the program in the hope that it would respond faster.

As a result, the $75 million transferred to the Government of Pakistan has yet to support
payments to impoverished families as intended in the agreement.

   Recommendation 1. We recommend that USAID/Pakistan establish a policy of
   directing document requests pertaining to Agreement No. 391-012-01 to Pakistan’s
   Economic Affairs Division, requesting the prompt submission of all information required
   for the release of the $75 million for the program.

Mission Has Not Obtained
Documents Required to Monitor
the Use of Funds
According to the cash transfer agreement, the Government of Pakistan is required to provide
USAID/Pakistan with quarterly reports on the uses of local currency funds (6.4 billion rupees)
and corresponding bank statements for the special rupee account until the funds are fully
withdrawn and used for the program’s purposes. An amendment to the agreement, dated June
2010, prohibits use of the 6.4 billion rupees for any purpose other than supporting the program
and stipulates that the government can disburse funds to the program only with USAID/Pakistan
approval. The agreement also states that the funds in the special rupee account cannot be
comingled with other funds.

USAID/Pakistan has not received any bank statements from the Government of Pakistan since
the cash transfer grant agreement was signed in 2009. Consequently, when the government
moved funds out of the authorized special local currency account and comingled them in a
general budget account in September 2010, USAID/Pakistan did not know. The 6.4 billion
rupees remained in the general budget account for 8 months before the mission learned that the
funds had been moved; the Government of Pakistan transferred the money back to the special
local currency account in May 2011. In a letter to USAID/Pakistan, a government official
explained that the funds were moved because “the Finance Division was probably not aware of
subsequent amendments dated 28-06-2010 to the original Assistance Agreement revising the
disbursement procedures.”

Asked what they had done to obtain the needed documents, USAID/Pakistan officials said they
had made several verbal requests to the Government of Pakistan before resorting to a formal
written request in August 2011, 1 year after the funds were transferred. The mission sent

                                                                                             4
another written request in February 2012, during the audit. Internal requests within the
Government of Pakistan followed, but as of March 2012, USAID/Pakistan had not received the
required information. Mission officials also commented that a contributing factor to the struggle
obtaining the information was turnover: in the past 20 months, four USAID/Pakistan program
managers have supervised the program, and there has been similar turnover among key
Government of Pakistan officials.

In May 2011, the mission received a spreadsheet from the Government of Pakistan reporting
that the 6.4 billion rupees were returned to the proper local currency account. However, without
bank statements, the mission cannot confirm the spreadsheet’s accuracy or that the money was
not used in ways prohibited by the agreement.

   Recommendation 2. We recommend that USAID/Pakistan establish a plan for periodic
   follow-up with the Government of Pakistan’s Economic Affairs Division and the Benazir
   Income Support Program to obtain the required financial reports and bank statements.

Mission Did Not Review Eligibility
Under the Poverty Scorecard System
Initially, members of Pakistan’s Parliament submitted lists of potential beneficiaries. To reduce
the risk of impropriety, the World Bank assisted the program in creating a poverty scorecard to
select beneficiaries. According to the agreement, all USAID funds transferred to the program
are to be used exclusively for payments to families eligible under the poverty scorecard system.
Through a nationwide census, each household received a poverty score. Those falling below
16.17 qualify to receive program payments. In practice, the 6.4 billion rupees will be comingled
with the program’s general budget; however, 6.4 billion rupees of payments to families
qualifying under the poverty scorecard system must be attributed to USAID.

The mission attempted to monitor the payments received by the 480,000 reported beneficiaries
under the first tranche of $85 million. For example, the mission hired a contractor to perform a
survey of more than 300 of them. The survey concluded that more than 98 percent of reported
beneficiaries indeed received the reported payments. However, the contractor did not confirm
that recipient families were eligible to receive payments under the poverty scorecard criterion.

The audit team examined records for a statistical sample of 162 of the 480,000 recipients. The
records showed that all beneficiaries had poverty scorecards with qualifying scores.

USAID/Pakistan’s program manager stated that the mission did not attempt to verify
beneficiaries’ eligibility because mission officials did not consider such verification to be among
the required monitoring activities. However, the agreement states: “Funds will be used
exclusively to finance [the program’s] payments in 2010-11 to families eligible under the poverty
scorecard system.”

Without reviewing eligibility, the mission cannot be sure that cash transfers are being used for
their intended purpose. Therefore, we make the following recommendation.

   Recommendation 3. We recommend that USAID/Pakistan develop a plan to confirm on
   a sample basis that recipients had qualifying scores under the poverty scorecard system
   for the second tranche of $75 million.



                                                                                                 5
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Pakistan agreed with three recommendations in the report.

On the basis of the information provided by the mission in response to the draft report, we
determined that final actions have been taken on Recommendations 1 and 2, and a
management decision has been made on Recommendation 3.

Recommendation 1. We recommend that USAID/Pakistan establish a policy of directing
document requests pertaining to Agreement No. 391-012-01 to Pakistan’s Economic Affairs
Division, requesting the prompt submission of all required information required for the release of
the $75 million for the program.

USAID/Pakistan has adopted the practice of directing all document requests pertaining to
Agreement No. 391-012-01 simultaneously to the program and to Pakistan’s Economic Affairs
Division and has requested the submission of all information required for the release of the
$75 million tranche. Accordingly, final action has been taken on this recommendation.

Recommendation 2. We recommend that USAID/Pakistan establish a plan for periodic follow-
up with the Economic Affairs Division and the Benazir Income Support Program to obtain the
required financial reports and bank statements.

USAID/Pakistan developed a plan to follow up with the Economic Affairs Division and the
Finance Division of the Government of Pakistan on a regular basis, in both formal and informal
settings, until the requisite documentation is received. The mission provided evidence that it
had conducted follow-up with the Economic Affairs Division and the Benazir Income Support
Program. Accordingly, final action has been taken on this recommendation.

Recommendation 3. We recommend that USAID/Pakistan develop a plan to confirm on a
sample basis that recipients had qualifying scores under the Poverty Scorecard system for the
second tranche of $75 million.

USAID/Pakistan developed a plan to confirm on a sample basis that recipients had qualifying
scores under the poverty scorecard system. The plan includes the following:

1. After disbursement of the 6.4 billion rupees from the second tranche, the program will share
   with USAID or its contractor the list of beneficiaries attributable to USAID funding.
2. USAID or the contractor will draw a representative sample from the list (sampling
   methodology to be determined later).
3. USAID or the contractor will then visit the program secretariat to access the records of the
   individuals in the sample and verify that they have scores under 16.17.

The mission set a target date of February 2013 to complete these steps.           Accordingly, a
management decision has been reached on Recommendation 3.



                                                                                                6
Regarding the first finding and recommendation, the report on page 3 states that a potential
cause for the delay in transferring funds to the program was a senior mission official’s belief that
the principal purpose of the program was to support the fiscal accounts of the Government of
Pakistan. Mission officials took exception to this in their comments. However, we presented
this as one potential cause. We also noted on page 4 of the report that other officials said this
belief did not diminish efforts to monitor and disburse the second tranche.

In its comments, the mission also stated that there are two program objectives—the
disbursement of dollars from USAID to the Government of Pakistan and the distribution of
rupees to beneficiaries. The report recognized the two objectives and stated them on page 4.

The foregoing does not alter the basic finding and recommendation. As previously stated,
based on actions taken by the mission, final action has been taken on Recommendation 1.

The Audit Performance and Compliance Division will make a determination of final action on
completion of the planned corrective actions for Recommendation 3. The complete text of
mission comments on the report appears in Appendix II.




                                                                                                  7
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Pakistan’s cash transfer provided to
the Benazir Income Support Program reached the intended beneficiaries. No previous audits
addressed the areas reviewed.

The audit covered the program from September 2009 through March 2012. As of February 28,
2012, USAID/Pakistan had obligated and expended approximately $160 million on the program.

We reviewed applicable laws and regulations as well as USAID policies and procedures
pertaining to USAID/Pakistan’s program, including Automated Directives System Chapters 201,
204, 303, and 320 and supplemental guidance. The audit relied on the following sources of
evidence: the agreement; interviews with officials from the Government of Pakistan’s Economic
Affairs Division and the program, the World Bank, and USAID/Pakistan; and documentation
maintained at the mission. Audit fieldwork was performed at the USAID/Pakistan mission and
the program’s offices in Islamabad from January 18 through March 16, 2012.

In planning and performing the audit, the audit team assessed controls used by the mission to
manage the program and to ensure adequate oversight of program activities. The audit tested
monitoring procedures, record keeping, and control consciousness, among other controls.
These controls included maintaining regular contact with the partner organization and reviewing
project files.

Methodology
To answer the audit objective, the audit team interviewed officials at USAID/Pakistan, and the
Government of Pakistan to gain an understanding of (1) how beneficiaries were identified,
(2) how beneficiaries received payments, (3) how the mission ensures the quality of the data
reported by the implementing partner, (4) how the mission monitors payments to beneficiaries,
and (5) whether the mission is aware of any allegations of fraud or other potential illegal acts or
noncompliance with laws and regulations.

In addition, we performed the following audit tests:

•   Reviewed the cash transfer grant agreement to determine whether it is the appropriate
    implementing mechanism for the program.

•   Reviewed and tested the procedures established by the mission to monitor and ensure the
    quality of work of its implementing partner.


                                                                                                 8
                                                                                        Appendix I


•   Statistically selected 162 of the 480,000 beneficiaries attributed to USAID/Pakistan’s
    contribution and evaluated documentation of payments and eligibility. This is a statistically
    representative sample with a 95 percent confidence level, and the results can be projected
    to the intended population.

•   Interviewed officials from the mission, the implementing partner, and the Government of
    Pakistan to gain their input into all of the above audit tests.

•   Reviewed the mission-funded survey and interviewed the firm that conducted it to determine
    the scope of the work performed as it related to recipients’ eligibility.

From our statistical sampling, we believe that our substantive testing was sufficient to support the
conclusion that the program’s first cash transfer reached the intended beneficiaries.




                                                                                                  9
                                                                                      Appendix II



MANAGEMENT COMMENTS



MEMORANDUM

Date:          May 02, 2012

To:            Joseph Farinella
               Director OIG/Pakistan

From:          Andrew B. Sisson /s/
               Mission Director USAID/Pakistan

Subject:       Management Comments on the Audit of USAID/Pakistan’s Benazir Income
               Support Program (BISP)

Reference:     Draft Report No. G-391-12-00X-P dated March 28, 2012



In response to the referenced draft audit report, please find below Mission management
comments on the recommendations included therein.


Recommendation No. 1 We recommend that USAID/Pakistan establish a policy of
directing document requests pertaining to Agreement No. 391-012-01 to Pakistan’s
Economic Affairs Division, requesting the prompt submission of all required information
required for the release of the $75 million for the program.

Management comments:
Mission management concurs with the recommendation. USAID/Pakistan has adopted the
practice of directing all document requests pertaining to Agreement No. 391-012-01
simultaneously to BISP and Pakistan’s Economic Affairs Division (EAD), and has requested the
submission of all information required for the release of $75 million tranche for BISP. The April
6, 2012 letter relating to the release of the $75 million is attached as Annex A.

With respect to the findings presented on page 3 of the audit report, the Mission strenuously
objects to the assertion that “another potential delay in authorizing the transfer of funds to the
program was a senior official’s belief that the principal purpose of the program was the
disbursement of funds to support the fiscal accounts of the Government of Pakistan.” The
statement by a USAID/Pakistan senior official referenced above seems to be taken out of
context by the OIG. The importance placed on the first objective did not come at the expense of


                                                                                               10
                                                                                      Appendix II


the second, and did not cause USAID’s Program Managers to delay efforts to authorize the
release of the second tranche. Rather, the funds have not been released because involved
personnel from both the Program Office and the Office of Financial Management have been
exercising due diligence over the funds by insisting that the conditions for their drawdown are
met. In fact, USAID/Pakistan had intentionally added requirements for the drawdown of the
second tranche to the activity agreement because of inadequate reporting by BISP and EAD for
the first tranche of USAID’s funding, and to ensure Mission’s compliance with USAID
regulations on reporting.

The statement referenced above reflects the fact that there are two very different objectives of
USAID’s participation in the BISP program. The first objective (the disbursement of dollars from
USAID to the Government of Pakistan (GOP)), to which the referenced statement referred, was
achieved. Managing the second objective (the proper and appropriate distribution of the rupees
to beneficiaries) remains the primary focus of USAID. Under the budget support mechanism
used for this program, there were different requirements for (1) releasing the dollars to the GOP
and (2) releasing rupees to BISP. As the then-Program Manager explained to OIG in a June 24,
2010 email (attached as Annex B) “it’s important to distinguish the dollar disbursement and the
rupee budget support. Each has its own purpose and its own procedures.”

Accordingly, the Mission reports that final action has been taken and requests closure of this
recommendation upon issuance of the final report.


Recommendation No. 2 We recommend that USAID/Pakistan establish a plan for periodic
follow up with the Economic Affairs Division, and the Benazir Income Support Program
to obtain the required financial reports and bank statements.

Management comments:
Mission management concurs with the recommendation. As a result of the Mission’s repeated
reminders to both EAD and BISP, the Mission has now received all quarterly financial reports.
Additionally, during USAID’s meeting with EAD on April 2, 2012, EAD telephoned the State
Bank of Pakistan, which promised to provide the missing bank statements within the next few
days. As of April 18, no further documentation had been received. USAID/Pakistan will continue
to follow up with EAD and the Finance Division of the GOP on a regular basis, in both formal
and informal settings, until the requisite documentation is received.

Accordingly, the Mission reports that final action has been taken and requests closure of this
recommendation upon issuance of the final report.


Recommendation No. 3 We recommend that USAID/Pakistan develop a plan to confirm
on a sample basis that recipients had qualifying scores under the Poverty Scorecard
system for the second tranche of $75 million.

Management comments:
Mission management concurs with the recommendation. The Mission’s plan to confirm, on a
sample basis, that recipients had qualifying scores under the Poverty Scorecard system for the
second tranche of $75 million is as follows:

4. After disbursement of the Rs. 6,402,750,000 rupees from the second tranche, BISP will
   share with USAID and/or its contractor the list of beneficiaries attributable to USAID funding.

                                                                                               11
                                                                                       Appendix II


5. USAID or the contractor will draw a representative sample from the list (sampling
   methodology to be determined later).
6. USAID or the contractor will then visit the BISP Secretariat to access the records of the
   individuals on the sample list and verify that all individuals have scorecards with scores
   under 16.17.

USAID’s BISP Program Manager will be responsible for execution of this plan with the support
of USAID’s Office of Financial Management. The Mission anticipates finishing this action by
February 28, 2013.

The Mission notes that since BISP is a GOP program, its accounts are also audited by the
Auditor General of Pakistan (AGP), the supreme audit institution of Pakistan. The AGP’s
financial audit of BISP for the period from September 30, 2009 to March 31, 2011 included tests
to check the eligibility of beneficiaries under the Poverty Scorecard system. The AGP report was
reviewed and formally accepted by OIG on October 26, 2011.

With respect to the finding on page 5 of the audit report that the contractor did not confirm
eligibility of recipients, the Mission is pleased to report that the contractor did indeed confirm
that all beneficiaries in the sample had scores below the Poverty Scorecard cutoff level of 16.17,
as described in the Addendum to the Monitoring Report issued by VTT on April 9, 2012 (Annex
C). This Addendum was produced at the request of USAID/Pakistan’s current BISP Program
Manager as a result of the OIG’s draft audit report.




                                                                                                12
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
